No. 20-869

llnU,be

Susreme tourt of tbe @nite! $tuteg
Davrn E. HnNnv,

Petitioner
V.

Casrlp MnoIcar, CnNtpn,
Respondent

On Petition For Writ Of Certiorarr
To The United States Court Of Appeals
For The Ninth Circuit

MOTION TO DELAY DISTRIBUTION OF
PETITION FOR WRIT OF CERTIORARI
DENNIS W. KING
Counsel of Record
JOHN WINNICKI
DEELEY KING PANG & VAN ETTEN
1003 Bishop Street, Suite 1550
Honolulu, HI 96813
dwk@dkpvlaw.com
Telephone: (gos) 533-1751

MOTION TO DEI,AY DISTRIBUTION OF
PETITION FOR WRIT OF CERTIORARI
Petitioner David E. Henry, by and through his undersigned counsel, hereby
requests that distribution of his Petition for Writ of Certiorari, filed herein on December

27,2020,be postponed by sixty (60) days, that is, until June 12, 2021. Respondent
Castle Medical Center

filed its Brief for the Respondent in Opposition on March 30,

202I, and therefore, pursuant to the Rules of the Supreme Court Rule 15.5, the deadline
to distribute the Petition, the Brief, and any Reply to the Court for its consideration is

April

13, 2021

.

Effectively, April 13,2021 is the deadline for Petitioner to file his Reply

Brief, pursuant to Rule 15.6.
Petitioner seeks postponement of the distribution date in order to be able to file a
reply to Respondent's brief in opposition to the petition before the documents are
distributed to the Court. Petitioner's counsel need additional time to prepare a reply on
behalf of Petitioner because their current workload does not allow sufficient time to do so
by the deadline of

April 13,2021and their workflow

has been disrupted by difficulties

related to the present public health emergency. Therefore, pursuant to the Rules of the
Supreme Court Rules

2l

andthe Court's order dated March 19,2020 (589 U.S.),

Petitioner respectfully moves for delay of the distribution date of his Petition and
accompanying documents by 60 days.
The undersigned asked counsel for Respondent Castle Medical Center whether
they opposed this request and they stated that they took no position.

Executed on April 8,2O2L

,Wfri

DENNIS W. KING
JOHN WINNICKI
Attorneys for Petitioner

